'\

(

Supreme Court. U.S.
FILED

JUN 0 3 2020
OFFICE OF THE CLERK

IN THE
Supreme Court of the United States

Makeda Haile,
Petitioner

v.

Abdul Conteh,
Respondent

On Petition For Writ Of Certiorari
To The Supreme Court Of Virginia

PETITION FOR WRIT OF CERTIORARI

Makeda Haile (Pro-se Petitioner)
1955 Columbia pike 13
Arlington, VA 22204
703-867-3389
Hmakeda40@gmail.com

QUESTIONS PRESENTED
Whether The Supreme Court Of The United States and Department Of Justice are going
to discard the evidences, and ignore the violations, while corrupted and ill-intentioned court
employees put our civil justice system on a slippery slope by violating the unalienable,
constitutional and civil right of "the people".

Whether lower court judges can deny the Fourteenth Amendment right "....No state
shall make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the laws."
of the citizens.

Whether the lower court judges can deny justice being willfully blind to violation of Title
VII, Civil Rights Act 1964, as amended. "Discrimination in employment based on certain
characteristics (...religion, sex...)".

Whether the lower courts are "above" the Law, the Rules, the Constitution, and
JUSTICE.

n

LIST OF PARTIES AND RELATED CASES
The petitioner is Makeda Haile, the petitioner and petitioner-appellant in the courts below. The
respondent is Abdul Conteh, the respondent and respondent-appellee in the courts below.

Related Cases:
The United States Court of Appeals for the Fourth Circuit: Dismissed Plaintiff-Appellant's appeal
(March 12, 2020) Makeda Haile v. Kaiser Permanente Tysons Corner No. 19-2251

The United States District Court for the Eastern District of Virginia Alexandria division:
Dismissed Plaintiffs Complaint (October 23, 2019) Makeda Haile v. Kaiser Permanente Tysons
Corner, No. l:19-cv-01330-LMB-TCB

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

INTRODUCTION

2

RELEVANT FACTS AND BACKGROUND

7

STATEMENT OF THE CASE

9

REASONS FOR GRANTING THE PETITION

26

CONCLUSION

35

PROOF OF SERVICE

36

>

APPENDICES
APPENDIX A: The Supreme Court of Virginia, Dismissed Plaintiff-Appellant's Appeal for a Right
to Jury Trial (March 11, 2020) Makeda Haile v. Abdul Conteh No. 200238

APPENDIX B: Fairfax County Circuit Court order denying the motion to reconsider, Makeda
Haile v. Abdul Conteh No.LC-2019-12268 (December 3, 2019)

APPENDIX C: Fairfax County Circuit Court, Denied Plaintiff-Appellant's Motion for a Jury
Demand (November 8, 2019) Makeda Haile v. Abdul Conteh No.LC-2019-12268

APPENDIX D: Fairfax County Circuit Court, Denied Plaintiff-Appellant's Request for a Jury Trial
(October 28, 2019) Makeda Haile v. Abdul Conteh No.LC-2019-12268

TABLE OF AUTHORITIES CITED
CASES

PAGE
NUMBER

Heinrich Scheper GmnH & Co., KG v. Whitaker 280 Va. 5

33

HZ Retail LLC v. Mohammed, 98 Va. Cir. 108 (2018).....................

33

Meeco Mfg. Co. v. Imperial Mfg. W.D. Wash. LEXIS 50982 (2005)

30

United States v. Country Club Garden Owners Ass'n Jan 16,1995 E.D.N.Y. 159 F.RD. 400....30

STATUTES AND RULES

STATUTES 28 U.S.C. § 1257(a)

1

STATUTES 28 U.S.C. § 2403(b)

1

STATUTES 28 U.S.C. § 1746

1

STATUTES 42 U.S.C. § 2000e-2000e-17

2

Title VII of the Civil Rights Act of 1964

25

Fed. R. 38

31

Va. Sup R. 3:21

31

Va. Code Ann §8.01-336

31

Virginia Civil Procedure sixth edition §13.4[C]

30,32

U.S. Const. Amend. XIV

27,29

PETITION FOR A WRIT OF CERTIORARI
Makeda Haile, respectfully petitions for a writ of certiorari to review the judgment of
the Supreme Court of Virginia and the lower court in this case.

OPINIONS BELOW
The opinion of the Supreme Court of Virginia, Makeda Haile v. Abdul Conteh No.
200238 is attached as Appendix "A" and is unpublished. The opinion of the Circuit Court of
Fairfax County order denying the motion to reconsider No.LC-2019-12268 attached as
Appendix "B" and is unpublished. The Circuit Court order, denying the motion for a jury
demand attached as Appendix "C" unpublished. The Circuit Court order, denying the request
for a jury trial attached as Appendix "D 1,2 &3" unpublished.

JURISDICTION
Fairfax County Circuit Court denying the motion to reconsider was entered on
December 3, 2019. The Supreme Court of Virginia denied reviewing the decision on March 11,
2020. No rehearing was sought. The notice (on June 8, 2020) from The Supreme Court of The
United States to resubmit corrected writ within 60 days [Doc. 60]. The jurisdiction of this Court
is invoked under 28 U.S.C. § 1257(a).

The jurisdiction of the Attorney General of the State is invoked under 28 U.S.C. § 2403(b).
The Jurisdiction of the Solicitor General of the State is invoked under 28 U.S.C. § 1746.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourteenth Amendment to the United States Constitution provides pertinent part:
All persons born or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and the state wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States: nor
shall any state deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.
U.S. Const. Amend. XIV.

Title VII, Civil Rights Act 1964, as amended
Discrimination in employment based on certain characteristics (...religion, sex...).
STATUTES 42 U.S.C. § 2000e-2000e-17

Virginia Civil Procedure sixth edition §13.4[C] provides
"...some proceedings were unmistakable actions at law, triable to jury. Such actions are Jury
actions under new Rules if timely demand is made. These include...infliction of emotional
distress..."

INTRODUCION

I, the plaintiff - Appellant Makeda Haile, am a single mother with two minor children.
Here is an overview of the corruption and violation, that I faced for the past three years outside
this case. On February 2019,1 had to go to Fairfax County Circuit Court for child custody and
support, before the trial date the church that I go to was burned, later my attorney's office was
burned. (I questioned if these fire incidents are because of me) After that, my attorney moved
to considerably more expensive office, his behavior started to change, he started examining me
2

to find evidence that can potentially be used against me. For example, when I tell him that
police came to my house because of a fight that started by my ex-husband saying, "if you don't
sleep with me, I will sleep with our four-year-old child". My attorney responded by saying,
things have changed now a days, if the four years old child did not oppose the request there is
not much to do, and then he asks me questions like, if I ever hit my children.
The night before the court day, my children ( 5 and 6 years old at that time) told me that
they have seen a video on their father's phone, on how sperm get into a woman, and I recorded
the conversation on my phone and emailed the situation to my attorney. On the court day
both the guardian ad litem and my attorney said they do not want to hear the recording. At the
trial, the father was asked noting about it, but I was asked what I said to my children when they
tell me how they get exposed to the video. What additionally bothered me was, my phone
alarm biped (around the end of the trial) at 5:30 pm, right away the judge's phone alarm biped.
Also, the judge started stepping out of the court room without doing the last step of the trial,
the court employee who was sitting next to him stopped him. My ex-husband had two court
translators, rather than translating exactly what he said, they corrected most of his respond. I
try to tell this to my attorney, he ignored me.
On the day that we signed on the court order. My attorney, my ex-husband's attorney
and I were sitting on a table outside of the court room. I read the court order for the first time
and I requested the other attorney to make multiple corrections/clarification. For each
correction that I asked, she texted or make a quick call to see if "the father" agrees. I have lived
with my ex-husband for seven years. It is nearly impossible to get a quick and precise answer
from him, let alone for multiple questions. I knew she was not talking to him. After I write that I
3

disagree and sign the court order, I start taking picture of the order that I signed on. The
guardian ad litem snatched the court order from the table while I was in the middle of taking
picture and run into the court room. My attorney and the other attorney followed her.
After a phony trial with a corrupted judge, corrupted lawyers (my and the other
attorney) and corrupted guardian ad litem, I got unjust order, that the child support that I was
receiving for two children to be changed from 1,358.00 USD to 415.52 USD a month, while our
yearly income were unchanged. Using a very confusing explanation and calculation, I am
receiving 390.52 USD per month for two children till now (July 2020). I was ordered to pay
1111.44 $ for the Guardian ad litem. I tried to pay this fee, the court and the guardian ad litem
refused to accept the payment, even though it is on the court order.
The father sent the child, that was in kindergarten at that time (2017), to school with
the same soiled underwear and trouser because of an accident from the previous school day.
When the same child showed sever worry and fear that he is going to die, his teachers
requested us to find a solution, the father answered by saying that it is an evil spirit. I made him
see a therapist at Kaiser Permanente, she said it is depression. I know my son has no
depression. I contacted another therapist at "Franconia Family Therapy Center". The therapist
kept on asking me about my background. He was more interested about me than my son. I told
him that I am uncomfortable talking about my upbringing. After a lot of back and forth, he said
my son's worry is part of a grief process. When I was ready to leave his office. He told me that I
am "Abigail". She is women of God, who was married to a rich but crazy man and after he died,
she married King David. I asked him, how I can be Abigail with unemployed husband? (my ex

4

was unemployed for the last three years of our marriage) Now I understand that he was not
talking about my ex-husband.

The father repeatedly sent the child to school with no lunch. And refused to send the
younger child to pre-school, that I was paying around 250 USD per week because of the child's
need to practice social skills, from my minimal income of a pastime job. I was the only parent
who took the children to any kind of medical care, the father took them only in a few rare
occasions. These evidences that show the father's repeated conscious negligence and
carelessness to the children's wellbeing was partly withheld to be submitted to the court by my
attorney and the rest deliberately ignored by the judge. My sole custody was changed to joint
legal custody.
Though, one of the reasons for ending our marriage was, endless dispute and argument.
The judge ordered us to participate in five co-parenting education together at the same
location, and sixty percent of the cost of the class to be paid by me. It is undeniable, that the
court order is not only unjust but also is adding deliberate effort to boost domestic violence.
My attorney told me that I must pay 5000.00$ to the court to appeal this order. I had a
phone conversation with another attorney. He sound interested and he asked who the judge
was. As soon as I told him the name of the judge, He sound alarmed and said he cannot take my
case and he hung up on me right away. Although, I have a Bachelor of Science, it was
overwhelming to appeal because of the ambiguousness and extreme technicality of the justice
system. I did not appeal the order.

5

After I start working at Kaiser Permanente, I received a notice to get a gynecology
checkup. The doctor's through head to toe examination, made me feel like I was getting
checked for sale. She took me to her office afterword. The family picture that she has in her
office does not look like her. I told her that there is no one that looks like her in her family
picture. She moved the family picture away and she got extremely nervous. I knew there was
something wrong. Later, I received a notice that say she no longer work for Kaiser Permanente
(Kaiser). Recently, I received a notice that say the primary physician, that I saw for almost three
years, and who knew about my abuse, left Kaiser. And before I got terminated the pediatrician
that was aware of the terror that my children and I were facing and care for my children for
years, left Kaiser as well. A very clear pattern.

There were three toys that my children liked to play with at home, suddenly, around the
same time all three toys are missing one leg or one arm. I asked my children if they know what
happened to the toys. My children had no idea when or how it happened. Terrorizing.
After I got terminated from Kaiser, my fist grader was abused at his school. I start
looking into it. His class was an absolute chaos. Some of the kids have sever behavioral disorder
(biting each other up, out of control...). I went to observe second-grade. The teacher (Ms. Laila
Leikvold) began to teach about USA, the student start condemning (with zeal) the founding
fathers of this nation, without even being asked.

I got my children to be transferred to a different class. My first grader was assigned to
sit next to a girl with a special need. She uses an Ipad without an earphone, while the others are
working on reading or writing. I explained this destructive classroom atmosphere to the

6

principal and the school counselor. I was lectured by the principal about inclusion. This is not
inclusion. Arlington Public School is creating the right environment to raise self-distractive
citizens.

The first grade Family Life Education curriculum says "Penis - The organ of the male
reproductive system that he uses when urinating and when having sex". I was provoked and
insulted by Arlington Public School employees, for looking into it, to possibly find a solution.
Recently the superintendent (one of the major oppositions that I faced) got replaced by
another person.

RELEVANT FACTS AND BACKGROUND
I, Plaintiff-Appellant, Makeda Haile worked at Kaiser Permanente Tysons Corner for
about three years, I witnessed twenty-three employees departing with no official farewell.
Although the place is known for its toxic environment, I have experienced the severest form of
abuse and threat because of my Christianity and refusing Dr. Backus's quid pro quo sexual
request. The abuse at work was inflicted by Mr. Conteh and his friends, at the same time, I was
terrorized outside of work by different strangers.

The terror and abuse that I was facing completely stopped after Dr. Backus become the
laboratory director and started flirting with me. I got promoted to work in the office and then
was offered additional promotion (assistant supervisor position). But as soon as I decline to
take it, an exacerbated abuse started.

7

I went to the Federal Bureau of Investigation (FBI) at Washington DC. to report the
suspicious extremist activities. I was told to report it to the police. I reported it to McLean
district police station. I was told by the police officer that "unless I see someone making a
bomb. I should not worry about any extremist activities" and to get protective order for my
own safety.

On August 20, 2019 I was able to get preliminary protective order for my minor children
and me from the District Court of Fairfax County. The protective order was dismissed on
September 4, 2019, by using illegitimate justification. I filed a request to jury trial. The jury
request was denied, the demand to jury trial was also denied. On December 3, 2019 the motion
to reconsider was denied as well. [Appendix D] The amended notice of appeal was filed on
December 12, 2019. [ Doc 1,2,3] to the Supreme Court of Virginia. The court dismissed the
appeal. This writ followed.

While I was working on the protective order, the abuse and the terror intensified. I filed
a charge with Equal Employment Opportunity Commission ("EEOC"). The employee of EEOC
told me to find another job. His advice is inappropriate. I told him that I am also terrorized
outside of work. I received the right-to-sue letter from EEOC on October 03, 2019. [Doc. 4]

On September 25, 2019 I contacted a Pro-bona attorney (Christopher Rau), first he told
me to find another job, then rather than giving me legal advice, he started insulting and
intimidating me by asking, how I come to this country, what my emigration status is, passed
that he told me how he had an Ethiopian client and how she sued her employer, wan the

8

lawsuit and then she lost her mind and become homeless. After that, I contacted Legal Services
of Northern Virginia, they said they cannot help me, by giving me unclear excuse.
I file complaint as pro-se to the United States District Court for the Eastern District of
Virginia Alexandria Division on October 18, 2019, with a claim of discrimination, harassment
and terrorization because of religion and Hostile work environment. On October 23, 2019, the
District Court dismissed the complaint without prejudice. The notice of appeal was filed on
time. While I was writing the informal brief for the United States Courts of Appeals, I was able
to better understand how I was a victim of hostile work environment because of sex (Quid Pro
Que) and retaliation. I went back to Equal Employment Opportunity Commission ("EEOC") and
file the second charge of retaliation and hostile work environment because of sex (quid pro
quo). EEOC gave me the second right- to -sue letter [Doc. 5] on November 21, 2019. The appeal
was dismissed by the United States Court of Appeals on March 12, 2020.1 am filing one more
writ of certiorari in addition to this writ.

STATEMENT OF THE CASE
I worked at Kaiser Permanent Tysons Corner from November 14, 2016 till November 26,
2019 as a Medical Technologist. At the beginning, the person who lead the orientation asked
each new employee to tell something different or special that we do outside of work. I said I
read the bible every day. He asked me if I have a favorite verse. I said I don't have a favorite
verse but a book (book of psalm). He asked why, I told him no matter what a person is going
through, the psalm is the book that shows the person that God is with him. What Kaiser

9

Permanente was doing at the orientation was, asking new employees personal questions that
has absolutely no relation to the work that we do, for the soul purpose of finding critical
information, that will later be used for discrimination.

Evidently, right after I started working Ms. Veronica Williams (co-worker) asked me to
have a child from her husband. It was an insult since I did not even know her much, but I said
no.

Shortly, Abdul Conteh (Veronica's friend) was hired for evening shift. After a short while,
he was moved to work day-shift the same hours as me. The day shift was fully staffed. There
was no need to bring additional person, but he was moved without any problem. In the
contrary, it is quite common to work with short stuff. And later he got his work hours changed
to an earlier hour, because he was facing heavy traffic. I was denied one-hour adjustment to my
hours (Mondays and Tuesdays only) so that I don't pay 390.00 $ a month for work related
childcare. What was more bothering was some days, he will not come to work even though he
was on the schedule. Everybody acts as if they are unaware that he is on the schedule.
On February 11, 2017 Mr. Conteh, Ms. Veronica and I were working together. Veronica
started making fun of my breath. I try to explain to her that I did not eat....She kept on insulting
me and he kept on laughing. Right after that, I was using the computer that Mr. Conteh was
using, to be able to cover his break. He left an article open on the computer, which was about
how people attack others that are better than themselves because of jealousy. This is
deception. After a short while Veronica got transferred and got promoted. And then she started
emailing us job instructions. Promotion of hostile behavior by Kaiser Permanente management.

10

Later, 2017 Abdul Conteh told me that he will cut off one of my arms and one of my
legs. Even though it was barbaric and terrorizing, I did not know how to address it.
One morning in 2017 when I opened my apartment to go to work, there was a
completely naked man sitting next to my apartment door. I called 911.
On January 10, 2018 Louise Archer Elementary School (the school of my kindergartner)
emailed that the school is in a "Secure the Building" status because of police activity in the
surrounding neighborhood, his younger brother's pre-school was across the street from the
elementary school. [Doc. 6]
The new director, Dr. Backus started flirting with me. Then I was promoted to work in
the office. The abuse I was facing completely stopped. I was working more than twenty hours (I
quitted my other on call job). I was persuaded to take the assistant supervisor position (another
promotion). But all the communication was verbal. They were incredibly careful not to have
anything in writing. Though I was offered a promotion, my evaluation was average. It was
confusing to me at that time.
I asked Azeb Ketema (co-worker) if I should take the assistant supervisor position. First,
she said go for it, later she said Ms. Lane (former supervisor) has offered her the position as
well. I know that was not true. I refused to take the position. Right away, Mr. Conteh became in
charge of making schedule. And when I request for a day off, Ms. Lane stared telling me to ask
Mr. Conteh. Later they said the assistance supervisor position is offered to Mr. Conteh and they
interviewed him. Ms. Lane stopped treating me professionally, and she refused to let me work
more than 20 hours. I contacted two different Kaiser locations to be able to work more hours.

11

After each attempt, Ms. Lane let me know that she is aware of it. One of the managers told me
that he does not want to start a fight with Ms. Lane by letting me work some hours at his
location.

Later, Ms. Lane got fired and Melynee Gallegos become the supervisor. After Ms. Lane
was fired, she sent a message, it sounds like she was dictated on how to treat us.
On May 7, 2018 Ms. Gallegos told me that I need to do unnecessary retraining, which
was out of my working hours. When I realized that she was trying to add extra childcare
expense and stress on me, I emailed the trainer Mr. Brandan Willis (now Ms. Gallegos's
supervisor), if it is possible to do it in two days [ Doc. 7 ]. I got no respond, but Ms. Gallegos
start threatening me for going out of the chain of command.
On May 8, 2018 Ellie Azizoltani wanted to train me. She wanted to use my personal ID
and password (access). I said no. She started yelling at me saying that I asked her to work under
her access. Ms. Gallegos was standing next to us, showing no care to resolving the dispute. I
asked (co-worker) Ms. Askari Masoumeh to show me Dr. Backus's office to notify him about the
problem. He was not there. I asked the pathologist who opened the door if he left for the day.
Rather than answering the question, she tries to find out why we need him. She looked very
suspicious, I told her I will send him an email and left. I have over ten years of experience. I
have never seen the pathologist office being locked, or another pathologist hiding the working
hours of the director. In contrary, in all other labs, the working hours of the director is posted
on the notice board.

12

On May 18, 2018 Ms. Gallegos start insulting me by making fun at my breath in front of
Hazel Reyes-Natividad and Anjali Kelkar. I felt sick and went home before the end of the shift.
Ms. Gallegos was upset and called a meeting with the union representative( Ms. Linda Ward) on
May 21, 2018. She retired shortly afterward. Even though I notified Ms. Ward that I have been
bullied and harassed, without any concern to my complaint, she gave me a warning for going
out of the chain of command.
Later, Ms. Gallegos took me to her office, and she apologized about how she treated
me. She said HR is notified, and she asked me if there is anything, she can do for me, including
changing my working days and hours. She started acting very professional. She told me that I
am changing the dynamics of the lab. But my evaluation was still average. I did not quite
understand why both managers are giving me an average on the evaluation while they are
admiring my work. I did not want to restart abuse, so I tried to tolerate it. Couple of months
later, she started harassing me again.
Sometime around November 2018,1 kept on getting a repeated phone calls with
frightening voicemails for an exceedingly long time. I called 911 and reported it.
In November 2018, when my children and I were entering our apartment, we found a
notice that say, there is a lurker spotted two different times and we must be vigilant. [Doc. 8] It
was stressful since we reside on the first floor.
Another time in a middle of conversation Mr. Conteh said, I will have a visitor at my
home. In a middle of another conversation Mr. Conteh's best friend Jafer Mohammed said I

13

have been robbed. Based on how much they terrorized me at work, I believe they are at least
aware of the terror that I am facing outside of work.
On March 22, 2019 approximately around 5:30 p.m. There was door nock and I looked
through the door hole. There were two African American men, that have a logo of Comcast on
their outfit. I asked them what they want, without answering my question they waved their
hand at me. I stopped my children from opening the door. I waited for a while and checked
again through the door hole to see if I need to call 911, they were gone.
On May 2019 Mr. Conteh made his second threat, by making a hand gesture while
walking toward me the same way (rage and irritation) ISIS does before they kill people. I froze. I
was not expecting this kind of extremist hand gesture in America.
On May 2019 three instrument, that I was working on broke down at the same time. I
was busy fixing it and keeping up with the workflow. On the instrument that runs one patient
sample at a time (it gives a printout of the result, when it is done). I found a printout of a result.
I took the printout and the sample, and resulted it, so that the doctor can treat the patient
based on the result. Then I found out, it was a reprint of the previous result (wrong patient). I
called the doctor and notified the problem. Run the sample and corrected the result. Even
though, I was the only person assigned to work on this instrument, as soon as my focus is
shifted to fixing the instruments, Mr. Conteh reprinted an old result and went home without
saying anything to me. I sent an email to Ms. Gallegos. No response. The next day when I try to
confront Mr. Conteh on why he did it, he said "he is just a messenger". Couple of days later I

14

wanted to print the email for my documentation, the email is not there anymore. I did not
delete the email.

On June 16, 2019 Abdul Conteh, walking toward me said, he will cut one of my legs, one
of my arms and asked which one of my eyes works better. I told him this is his third time
making this kind of threat, and he needs to stop. I send an email about the threat to Ms.
Gallegos, Mr. Willis, Cheryl L. Fox Ward (Mr. Willis's supervisor) Paula J. Watts (HR
representative) Dr. Scott R. Backus (Laboratory director). [Doc. 9] After that I notified Kaiser
Permanent's security. Next morning, I reported the threat and the suspicious activities to
McLean district police station. [Doc. 10] After I got back from the police station, Ms. Gallegos
took me to her office and said, Dr. Backus will not be working with us anymore. I did not
understand why he left, right after I went to the police. Later, I start seeing him. At this point I
start to question if Dr. Backus is involved.

Ms. Gallegos tried to convince me that Mr. Conteh is harmless. Then she said that I must
learn to stand up for myself and defend myself. After that she started questioning my mental
health. This is beyond promotion of workplace violence.

After I went to the police, Jafer Mohammed (Mr. Conteh's friend), while telling me that
he draws full blood sample tube, with his hand he shows me as if he is cutting his neck. After
that Mr. Conteh repeatedly called him "my brother". In the middle of anther conversation Mr.
Conteh said, "we have a tough cookie" and also, he said "how long can you keep up" he spoke
these sentence loud enough so that I can hear it but not the rest of the conversation.

15

On June 20, 2019 Ms. Gallegos send me an email that say, I made a mistake on
competency [Doc. 11,12] This test is done while the patient is on a surgery table (in the middle
of a surgery). The result is used to determine how much tissue the surgeon must remove. I
reviewed the procedure, and I send her an email saying I did not make a mistake. She emailed
me a copy of the procedure. I found out that she was using a procedure from a different
location. The location uses different instrument and different methodology. When I emailed
her back with the explanation, she did not respond. What she was doing is overloading me with
extra work on the busiest hour and on the busiest day, so that I will have a bigger chance of
making mistake or misleading me to use a wrong procedure so that I can make a mistake. And
send wrong result to the doctor, which will consequence to a surgical error.
On July 9, 2019 after meeting with Ms. Watts and Ms. Calloway (HR representatives)
and Ms. Gallegos. I was put on half day paid leave; [Doc. 13] I was relieved because Mr. Conteh
was working. But on July 29, 2019 [Doc. 14] even though there were four people to work on
schedule, Ms. Azizoltani did not show up, Anjali went out of the laboratory. Mr. Conteh and I
were alone in the laboratory. Conflicting and deception.
On August 5, 2019 for the first time at Kaiser Permanente, my user ID and password did
not work on the instrument. Per Ms. Gallegos's request, I had to switch to work on a different
instrument, then I was responsible to process blood for transfusion. While I was processing to
release blood to a nurse, there was only one small pop-up that say the blood is norp-irradiated.
And it gave me an option to override. If I missed that "only" warning, I would have released the
wrong blood to be transfused to patient. Later I was told, that by mistake, a wrong blood was
sent to us and Tysons Corner's blood was sent to a different Kaiser Permanente location. The
16

possible risk of wrong blood transfusion is cardiac arrhythmias and cardiac arrest, which is the
member can die, if it is not treated right away. Even if I send a detailed email to upper
management, about what happened and what should be corrected to avoid this kind of
mistake, no respond. [Doc. 15] I was set up as a target by using a crack in the system with
absolutely no concern to the patient's health or life.
Every manager orders food when the laboratory is inspected. On the 2019 inspection,
Ms. Gallegos said, she did not order food because of Ramadan (Muslim's fasting time). This is a
clear discrimination and a violation of religious freedom.
When I was doing an online training for a new chemistry instrument, I had an IT
problem. Therefore, I was not able to do most of the training. Ms. Gallegos said that is fine.
When the in-person trainer came to our location, I was told by the trainer that Quality Control
and Calibration will not be done by day shift. Therefore, I did not get any QC and Calibration
training and I did not get adequate general training. After we went live, there were multiple
needs to do quality control and calibration. I had to constantly ask others what to do and follow
what they told me to do, without fully understanding what I was doing.

People follow my children and I for years, on September 2, 2019, we were at National
Harbor. There was an African American man following us while taking pictures and video of us.
On September 3, 2019 I send an email to Ms. Gallegos for a clarification of another
unnecessary retraining. [Doc 16,17,18] Rather than answering, she threatens to put me on
unpaid leave. When I ask her verbally, she just ignores me or gets upset and start yelling.

17

At the protective order hearing on Sep 4, 2019. Mr. Conteh explained that he made the
threat to cut my body parts for the purpose of organ donation. This fraudulent justification is
equivalent to saying, "when the pigs fly". There is no leg or arm donation. The protective order
was dismissed by Fairfax County Circuit Court judge. I appealed the order on the same day.
When the laboratory was busy, all employees could miss break to be able to report test
results faster. But on September 10, 2019 Ms. Gallegos send me an email saying that I am not
going to get paid for missed break, but at the same time she repeatedly complains that I am
taking too long to result tests. She is indirectly forcing me to work for free. [Doc 19,20,21,22]
She also said, I made a mistake on a competency that had a misleading true or false question.
She is purposefully hiding critical information on the questions.
On September 2019 Ms. Gallegos put me to be trained by Mr. Mohammed (Mr.
Conteh's friend). The next day when I was working on a different work bench, she gave me to
do more paperwork that was part of the previous day training. I emailed her saying, the
additional work that she is giving me, on top of the work that I was responsible for the day is
unbearable. Rather than addressing the problem, she added more work and accused me of
being late on doing a survey that Veronica emailed on July 26, 2019. Even though the unclear
email that she sent on September 6, 2019 say that it must be done by September 10, 2019.1
went around and asked others, the two people that I asked said they did it after their
processing training. And the other two did not do it yet, she complains only on me.
Mr. Conteh never assigned me work, but on September 21, 2019 I found that Mr.
Conteh left me a proficiency [Doc. 23, 24] to do and also he wrote a note on the board that say,

18

the day of completing for policy tech reviews is 9/18/19. In addition, I had to finish a previous
competency for urine unknown sample and white blood cell and red blood cell identification.
And Ms. Gallegos send me another email that say only Cell Identification [Doc 25,26] I am
loaded with unbearable amount of work on top of my daily responsibility, and then she
questions my mental health and she tells me that I am having problem following instructions.
On September 23, 2019 Ms. Gallegos stopped me from getting a three-sentence
character letter [Doc 27] to be signed by co-workers, for the protective order. First, she said, I
cannot do it in the building, then She said I must be off the clock and the person who is signing
the paper must be also off the clock. My start & end work hours are different from others,
which will make it impossible to get the character letter signed. Mr. Conteh's character letter
was signed while everybody was working without any problem. This is discrimination.
In September 2019 while Mr. Mohammed was training me. He called a patient and he
told me to help her. Normally ever employee helps the patient that he/she called. Anyhow, this
patient was there for a urine drag screen testing. She had two children with her, probably a
four and three years old. The patient left the younger child outside and went into the restroom
to collect urine with the older child. For urine drug screen collection, patients are not allowed
to take anything to the restroom with them, not even their purses. When I asked Mr.
Mohammed how we let her go to the restroom with her child, he said there is nothing we can
do. I email this to upper management. I was told it will be on the next meeting. I did not hear
anything about it anymore. There are many devastating stories about a prescription drug
overdose and or a prescription drug abuse. Management should have taken a precise action to

19

decrease the chance of compromised sample collections. This is negligence and incompetent
ness of the laboratory and management to the public's health and wellness.
On October 28, 2019 at the civil term day, the request to jury trial was denied in favor of
unserved motion to strike a jury demand. I filed a motion to demand a jury trial on the same
day. On November 8, 2019, the jury demand was dismissed without any legal explanation or
justification. I filed motion to reconsider, on December 3, 2019 the motion to reconsider was
also denied. I filed a notice of appeal and petition for appeal to the Supreme Court of Virginia.
The appeal was dismissed, and this writ followed.
While I was working to get protective order for my children and me, the abuse and the
terrorization exacerbated. Ms. Gallegos repeatedly gave me hard time regarding my cell phone.
She tried to force me to leave my cell phone in my locker or in my car. I explained to her that,
the only number my minor children have memorized is my cell phone. After a lot of back and
forth, she called a meeting with Mr. Willis, and Mr. Brad. I was told that I had to have my phone
on vibrate and if there is only a true emergency ("true emergency is defined by them if I am
getting a repeated calls") I had to step out of the laboratory and then can answer my phone. On
November 2019 Anjali (co-worker) took picture using her phone, in the middle of the lab, while
Ms. Gallegos standing next to her, Ms. Gallegos gave me a look that was like so what? And a
couple of days later, Franchesca Cole, Jessica Kim and others were in the middle of the lab
taking pictures with their phones while I was working. I send an email to upper management,
no response.

20

Semen analysis has the easiest work. Everybody who works day shift is trained to do
semen except me. Ms. Gallegos asked me if I want to be trained. I said yes, never got trained.
The things that I want to do and that are easier, I will be denied. And the things that I say is
overwhelming, will be made worst. Because of the endless abuse, terrorization, and retaliation
my health and my life at work and outside of work start to deteriorate, on August 24, 2019,1
send an email to the upper management saying I am overwhelmed. [Doc 28,29,30,31] No
respond.

Continues Education is an additional learning activity on the topic that are covered in
school or at work. I did not learn semen analysis in collage, nor had any training at work. I was
assigned to do Continues Education for semen analysis by Ms. Gallegos. She refused to email
me the link and told me to write it down, I question the legitimacy of the website. I send an
email asking for the link. She sent me a link for a different training, and she said that she
already sent me a link for the semen, which was not true. [Doc 28,29,30,31] later she said, "she
is not going to send me the link" and came to the computer that I was using and google the
website and told me to start with semen analysis. I start the video; The lesson starts with a big
picture of penis and it was sexual. A violation of my First Amendment right (right to religion).
On September 23, 2019 Ms. Gallegos interrogated me for almost two hours. She said,
did you violate HIPPA. And when I say how? she said, you must answer yes or no (yelling) she
said yes because you have member's information in your personal locker. She said, it has been
reported and you will be investigated. Then she questions my mental health. And then she said,
I know what you are trying to do, you are trying to get Mr. Conteh fired. And she stared
threatening me by saying that she was asked to transfer to a different location, she refused it,
21

she said she will not go nowhere. If I am working at Tysons, I will be working under her for
many years. And I am not going to like it. After the interrogation, I went for my lunch break.
Even though I was hungry, I could not eat my lunch. I came back to work after my break. I was
training by Mr. Mohammed. Ms. Azizoltani came to me and said she rather die than being in
this situation. She was sincere. Later she stopped coming to work, I called her repeatedly. She
did not respond. Afterwards, she answered the call and she said she was told by Ms. Gallegos
not to answer my-call or to have any contact. It is a very toxic work environment, but people
are scared to speak up, because of the severe retaliation and I believe that, there is more crime
going on at Kaiser Permanente Tysons Corner.
The next day (September 24, 2019), I filed a charge with Equal Employment Opportunity
Commission ("EEOC") for employment discrimination due to religion in violation of Title VII of
the Civil Rights Act of 1964, as amended.
On September 27, 2019 Ms. Gallegos came from behind, pick up a member's sample
and said , this is hemolyzed, it needs to be redrawn (yelling). What she meant was because of
the poor quality of the blood the test result will be elevated. I try to explain to her, she did not
listen. I print the procedure and took it to her office. She snatched it from my hand and throw it
in the trash. The test result was normal. She was trying to find an excuse to yell at me and to
abuse me [Doc. 32,33] At this point it was too much, so I emailed a final complaint to
management and HR. No response.[Doc. 32,33] I emailed additional complaint on October 5,
2019 No response, but Ms. Gallegos corrected the usage of my vacation hours to pay me for a
legal holiday.

22

On October 19, 2019 I gave Ms. Gallegos the reimbursement form for retraining hours
(outside of work hours) [Doc 34]. Even though others got reimbursed, Ms. Gallegos denied
paying me using my available education hours that the company put in place for such purpose. I
did 4 hours of retraining without getting payed while the others are reimbursed.
On October 30, 2019 Franchesca Cole came from behind and hit me on my back. I was
shocked because I did not see her coming. I asked her why she hit me, she said she put a sticker
on my back. I could not reach the sticker to get it off. She took it off herself. She went away
yelling that she will report me. After that I watched her putting sticker on others. Before that
she was making unprofessional facial expressions and used unprofessional language when I
passed by her. I send an email saying the verbal abuse that I was facing escalated to be physical
[Doc 35,36,37,38]. This intentional infliction of emotional distress is tort. It is crime.
Another time, Ms. Azizoltani, walking toward me said. " All what you must do is submit"
I said, I have no problem submitting to what is right.

On November 4, 2019 as soon as I start work Ms. Gallegos came to me and said, it is
offensive and bulling to email court papers to Mr. Conteh. I told her that I do not know his
address and I was informed by the court to email him. Then I asked her how it is harmless when
he threaten my life, but offensive and bulling when I email him court papers. She said you need
to stop, and she left. I emailed this to Ms. Watts (HR representative), she responded by saying, I
have an option of hand delivering the court papers to Ms. Conteh outside of work [Doc. 44].
She is promoting violence.

23

On November 5, 2019 at 11:00 a.m. Franchesca Cole came to me and said I need to
transfer urine to a red top tube, she said it is a new procedure. I could not find the procedure, I
asked Ms. Gallegos what Franchesca made me do was right, and if she has the new procedure.
Ms. Gallegos said she cannot answer that. [Doc 42]
On November 13, 2019 around 10:00 a.m. Anjali and Hazel took their break at the same
time. Mr. Conteh and I were alone in the laboratory again. I left the middle door open.
Franchesca come and closed it. When I tell her that I do not feel safe being alone with Mr.
Conteh. she said," you are not the only person in here" (yelling). I emailed it to upper
management. Ms. Watts responded by saying, she will have a meeting with Ms. Cole but till
then she told me to refrain from sending any more emails. A violation of my human right to
seek relief and a violation of Kaiser Permanente's policy [Doc. 39,40,41,42,43].
While the abuse that I was enduring exacerbated, HR and management were watering
down my repeated complaint. By being willfully blind to the evidences and violated the
company's policy.

•

Threats and violence in the workplace policy: that says, "All employees who
obtain a protective or restraining order which lists any KP premises as protected
areas should provide a copy of the order to the local facilities manager and their
Human Resource representative".

HR and Management did not take a copy of the protective order.

•

Harassment-free work environment policy: that says "an employee is not
required to complain to his or her supervisor or manager..."

Ms. Watt send me an email that said, "...please refrain from sending any additional
emails...going forward, emails should include me, Melynee (Ms. Gallegos), your shop steward

24

and (Melynee's manager) Brandan." A violation of my right to seek relief, a violation of the
company's policy and being willfully blind to the violation of Title VII, Civil Rights Act 1964, as
amended.
On November 16, 2019 I emailed their violation of the company's policy. Later, I told
them (Ms. Watts and Ms. Calloway, Ms. Gallegos, and Mr. Willis) on a meeting that they
violated the policy and they are being willfully blind to the abuse that I was facing. No respond.
For years, Abdul Conteh, Anjali Kelkar, Hazel Reyes-Natividad, Renato Castillo, Elbethel
Damtae ask me questions and when I answer they will go away touching their nose.
Intimidation.

Shortly before I got terminated Elbethel Damtae tried to convince me to let it go. I told
her this kind of abuse cannot happen in America. She said what difference can "one person"
make. I told her one person can make a big difference like, Martin Luther King.
After the days that I have been severely abused and harassed, I will not be able to go
back to work for a day or two. And I will end up using my vacation hours, which I normally use
for no school days. This added a childcare expense which was over my income, and loose of
quality time with my children (increased the time my children must be raised by strangers
against my will). In addition to the suffering that I endured.

On November 30, 2019 I send an email to upper management and HR saying, unless an
appropriate safety measure is taken, I am not safe to go to work. One month later, on
December 31, 2019 management offer me to transfer to a laboratory (at 1413 Potomac Mills
Rd, Woodbridge, VA) that is neighboring Mr. Conteh's residence at that time (13175 Makina
25

Way, Woodbridge VA) and he used to work there. He still has friends at this location. If I accept
the transferred, in addition to the abuse, I must pay additional childcare expense, which I could
not afford. And it is impossible to use public transportation to commute to this location.
Management and HR are clearly working to make my life unlivable. I declined the offer
explaining my reasons. I was terminated, effective January 18, 2020.
My children and I are suffering unmeasurable emotional, psychological, financial stress
and in addition, I suffered physical pain. I was told by two doctors to start anxiety medication.
After I got terminated my family becoming financially dependent.

REASONS FOR GRANTING THE PETITION
Let me start by explain why I am doing this for the second time. I filed one writ for this
case and for "the quid pro que" sexual harassment case on June 3, 2020, since they are abusing
me unitedly. After days of repeated attempt to find out the status of the writ. I was told
through brief phone conversation; I must file two separate writs (no email). I received the
return of the first writ that I filed on June 16, 2020. The box was completely open and there is
no written notice about refiling the two writs separately in it.
This Court should grant the writ not only to provide the necessary relief, for the
terrorization and violation this case presents with enormous supporting evidence, the
deterioration of my and my miner children's livelihood, the courts' depraving legal protection,

26

and courts' denying of our right to a jury trial. But also, to take the responsibility to modify the
error of the civil justice system that become "a safe haven" for corrupted and ill-intentioned
court employees to shamelessly violate unalienable and constitutional right of "the people".
This lawsuit is an evidence that the civil justice system extremely complicated
technicality to be practiced by the public, in the contrary is used as a means for flourishment of
well-structured network of educated-criminals, by bribing folks in our courts that are fearful,
selfish ambitioned and or ill-intentioned. These corrupted authorities in our courts will be
willfully blind to the evidences, the Law, the Rules, and the courts' notice to shamelessly violate
unalienable and constitutional right, "life, liberty, or property... the equal protection of the
laws". U.S. Const. Amend. XIV.
In the beginning, the implicit condition of the job benefit (my promotion to work in the
office and effortlessly working up to 30 hours), the repeated persuasion to accept additional
promotion and the complete stop of the abuse that I was facing was confusing to me. But the
exacerbated pervasive and sever abuse and terrorization that I suffered with a tangible job
detriment, especially after I completely avoided eye contact with Dr. Backus (to show my
refusal to his sexual advances), and seek legal protection is an evidence that I am not only
discriminated, terrorized because of my religion but also suffering a retaliation for refusing quid
pro quo request, and seeking legal protection.
My Christianity was identified from the start, by the orientation leader, for later use of
discrimination. And evidently, the insult and abuse started right after by Ms. Veronica Williams
asking me to have a child from her husband, even though I did not know her much. Later, Mr.

27

Conteh (Veronica's friend) got hired for evening shift. And then, he got transferred to day shift
to work the same hours as me. Although, there was no (need) opening on day shift, and the lab
is known for working with short staff. Then his hours were adjusted to earlier hours because he
was facing traffic. I have been denied to one-hour adjustment to my hours (Mondays and
Tuesdays only) so that I do not have to pay 390.00 $ a month for work related childcare. What
was more bothering is some days, he does not show up to work even if he is on the schedule.
And others will act as if they are unaware.
In addition to the other abuses, Mr. Conteh said he will cut off one of my arms and one
of my legs on 2017.1 did not know how to address this barbaric threat. On May 2019 Mr.
Conteh made his second threat, by making a hand gesture while walking toward me the same
way (rage and irritation) ISIS does before they kill people. I froze.
After Mr. Conteh's barbaric third threat, of telling me, he will cut one of my legs, one of
my arms and asking me which one of my eyes works better (on June 16, 2019), I reported the
threat and the other suspicious activities to McLean District police station. I was told by the
police officer to get protective order for my own safety and not to worry about any suspicious
extremist activities unless I see someone making a bomb. I got preliminary protective order for
my minor children and me.
At the hearing, on September 4, 2019 at Fairfax County Circuit Court, Mr. Conteh
brought Ms. Franchesca Cole (his best friend) as a witness. She said right before Mr. Conteh
made the third threat, she told him organ donation story. Mr. Conteh did not deny making the
threat of cutting one of my arms and one of my legs and one of my eyes. But he explained that,

28

he made the threat for the purpose of organ donation. And he submitted a character letter
(some co-workers are obedient to him others stay away from him). Based on this justification,
the judge dismissed the Protective order. This was my second experience of shameless violation
of my family's unalienable human and constitutional right and phony trial at the same court.
There is no leg and arm or eve donation. This justification is equivalent to saying, "when the
pigs fly". It is self-evident that the judge was willfully blind to the immense threat that my
minor children and I are facing. And violated our right of U.S. Const. Amend. XIV
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and the state wherein they reside. No state shall make
or enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of the laws.
There was no court recording in the room. I was denied by the judge from using my
phone for recording. The only people in the court room were the court employees, the
defendant's side, and me.

The appeal was filed right after this ridiculous judgment. The court mail me a document
that say "You have the right to a trial by jury in this case" a clear and unambiguous language.
[Doc. 45,46] I filed and served the request for jury trial on time.
At the civil term day, on October 28, 2019 Mr. Conteh came with an attorney (Mr. Harsh
Voruganti). Before the court started, Mr. Voruganti briefly informed me that he has filed
motion to Strike the Jury Demand. I told him that I did not receive the motion. He said, because
of privacy he could not get my address, therefore he sent it to Kaiser Permanente Tysons
Corner without specifying the department (Laboratory). The least he could do was sent me an
email. Since I am pro-se and I was not served, I did not know what my options were, or I did not
29

have time to find out. I asked the judge what to do. Based on the judge's advice, I filed the
Demand to a Jury trial on the same day. [Doc. 47] Mr. Voruganti and his client deliberately
withheld the motion. They should have sent me an email or at least a text message. Mr. Conteh
knows my email and phone number. Mr. Vorguanti violates his ethical duty as an attorney by
not serving the motion. The court order is dishonest.
Ruling in favor of not served motion to strike a jury demand is clear error, Meeco Mfg.
Co. v. Imperial Mfg. W.D. Wash. LEXIS 50982 (2005), United States v. Country Club Garden
Owner Ass'n E.D.N.Y. 159 F.R.D. 400 (1995). Ruling against a timely filed motion to demand for
jury trial is abuse of discretion.
Based on the new Rule of Virginia Civil Procedure, my children and I have a right to a
jury trial. This protective order case is triable to jury under the new Rules of the Virginia Civil
Procedure sixth edition §13.4[C] provides.
"...some proceedings were unmistakable actions at law, triable to jury. Such actions are Jury
actions under new Rules, if timely demand is made. These include...infliction of emotional
distress..."
My children's and my constitutional right have been repeatedly violated in a bench trial.
I had enough of mockery bench trials. I need to be judged by "the people". It is too laborious to
file a complaint against each corrupted and ill-intentioned attorney and judge, because of the
volume. The effective way of addressing this violation of constitutional right by the same folks
that are in the position to ensure it is, by modifying the civil justice system, having
transparency, implementing documented communications and holding each court employee
accountable for their actions based on the recorded evidence. Me and my children would have
legal protection/and would have been enjoying our life by now if this were practiced in court.
30

On November 13, 2020 I saw Mr. Conteh coming into the laboratory (lab) holding a
yellow envelope. I have never seen him coming in to work holding such envelope. He went to
the front of the lab, right away Ms. Shireen Hossain come from the front of the lab holding
similar yellow envelope and gave it to me. It was the motion to strike the jury demand filed by
Mr. Conteh's attorney. [Doc.48,49] It has a court filed date of October 18, 2019 and a received
date (at Kaiser Permanente) of October 21, 2019.1 asked Ms. Hossain to sign a paper that say
she (herself) find it in the mail room and brought it to me on the same day. Ms. Franchesca Cole
(Mr. Conteh's witness) told her not to sign. Ms. Hossain refused to sign by saying she does not
want to be involved. They are covering each other's illegal act, without any concern to the legal
consequence to their action. Unacceptable in the USA.
On the court day, November 8, 2019 my children were with me, because of last minute
school closure. I could not explain to the court the threat, stress, and terrorization that we were
facing because of my children's presence. Therefore, I told the judge that I am not able to
explain the horror, but I have a court document that say I have a right to Jury trial. The judge
dismisses the motion to Jury Demand. I asked him if he is telling me that I don't have the right
(which means the court notice that I received is wrong). He did not answer my question and
there is no legal explanation (why our right to jury demand is denied) on the order. He just
shamelessly violated my family's right. Are these lower court judges above the law?
Denying a jury trial, is a violation of the Federal Rules of Civil Procedure Rule 38, The
U.S. Const. Amend. XIV, The Supreme Court of VA Rule 3:21(b), Code of Virginia [Va. Code Ann.
$8.01-336]. It is also against the document that I received from the same court (that say "you

31

have a right for a jury trial for this case" ). And against Virginia Civil Procedure sixth edition
§13.4[C]. The judge shamelessly violated our constitutional right and the Rules.
I filed a motion to reconsider on November 27, 2019. Assuming, I will be able to get a
chance to explain my distress without my children's presence. The motion to reconsider was
denied on December 3, 2019 [Appendix Dj. The first notice of appeal was filed on December 6,
2019,1 found a typo and the amended notice of appeal was filed on December 12, 2019. [Doc.
1,2,3] The Supreme Court of Virginia dismiss the appeal by saying the notice of appeal was not
filed within 30 days. The notice of appeal was filed in 9 days (from Dec 3, 2019 - Dec 12, 2019).
The final order of denying the jury trail is also filed with the petition for appeal. This is another
willful blindness by another judge.
The second reason was a jury demand is not appealable order.

•

I was informed that I have the right to appeal the and given the instruction on
how to appeal by the Fairfax County Circuit Court's clerk office.

•

I have conformed this step by contacting The Supreme Court of Virginia clerk
office, before starting the appeal process.

Therefor the information that I was given by both Courts' was unlawful. Or is this
another justification that is used by bribed and ill-intentioned judges to violate the rights of the
citizens? Or is jury trial a right that is given and denied by judges if it is not appealable.

When the constitutional right of citizens is robbed by the lower courts, there is nothing
the higher courts can do? Are these judges above the constitution?

32

Jury trial is a legal right unless the right for a jury trial is waved or not demanded
according to the Rules. These cases show how other courts ruled on this matter, HZ Retail LLC
v. Mohammed, 98 Va. Cir. 108 (2018) ("In this case, it is clear from the "waiver clause" that is
included in the lease that the parties intended to waive jury trial. Therefore, Motion to Strike
Jury Trial as to Count II is Granted"); Heinrich Scheper GmnH & Co., KG v. Whitaker 280 Va. 507
(2010) ("....the circuit court made an unchallenged factual finding that the waiver of the right
to a jury trial was limited to the first trial"/; United States v. Country Club Garden Owners Ass'n
United States District Court for the Eastern District of New York Jan 16,1995 F.RD. 400
("Overview; Court granted plaintiffs motion to intervene in fair housing act suit and denied
defense motion to strike jury demand because plaintiff was entitled to intervene as matter of
right and because jury trial demand was timely based on filing of answer.")
One of the interrogatory questions that I was asked by Mr. Vorguanti was, whether Mr.
Conteh had any contact with my children. The past three years, I have taken my children to
Kaiser Permanent CDU (emergency room) over ten times. The nurses, almost all the time send
us to the laboratory to give specimen. Mr. Conteh had multiple interactions with my children.
Specially one time, Mr. Conteh made one of my children identify his blood tube by reading his
name that was on the tube.
After people started following me and my children, I kept on gradually depriving my
children's outdoor and extra curriculum activities, because of fear of harm. Here are some of
the evidences. Canceled playdate [Doc 50, 51,52], The two missed field trips per child. [Doc.
53,54,55,56,57] I notified the terror that we were facing to the teachers of my children on Sep
30, 2019. [Doc. 58,59]. This is especially damaging to my younger child because of his need to
33

practice social skills. My children and I are suffering unmeasurable emotional, psychological,
financial stress. In addition to that, I have suffered physical pain. The courts violated our
essential right to get the necessary legal relief, first by denying the protective order and then by
denying jury trial. Despite the facts that we have been terrorized and are experiencing
excessive emotional distress because of the immense threat that we are facing.
Because of exacerbated intentional abuse and terrorization, I lost a lot of hair, appetite,
and a lot of weight. I saw at least two doctors to check if have abnormal bacteria growing in my
mouth. Nothing abnormal. I saw a doctor on October 7, 2019 because of severe stomach pain.
He said I should start taking anxiety medication. A saw a gastroenterologist afterward, he said
the same thing and wanted me to get a colonoscopy as well.
I request to be awarded my family's right to jury trial (for the protective order case), and
I also request to be awarded a payment of 3040.00 $ by Mr. Abdul Conteh (the defendant) to
cover this lawsuit related expenses. In addition, I believe this certiorari puts in perspective the
future existentiality of justice in our civil courts for all Americans, which is against the mission of
the Department of Justice (DOJ) "... ensure fair and impartial administration of justice for all
Americans." It is essential to modify the civil court system, so that it can be accessed or
practiced by the public. And at a minimum to have a voice recording inside the court rooms for
accountability and transparency. If this systemic error is left uncorrected, it is inevitable that
lawlessness will become the Supreme Rule of our Civil Courts, because of the rising number of
criticizes that are being systemically silenced in the journey to modern slavery by wellorganized, educated criminals.

34
i

The question is, whether the United States Supreme Court and the Department Of
Justice are going to ignore this error, while corrupted and ill-intentioned court employees put
our civil justice on a slippery slope by violating the unalienable human right and the
constitutional right of "the people".
The case presents overwhelming evidences of how, the civil justice system is being used
for manufacturing educated criminals, and to shatter each citizen, individually, to the
distraction of the foundation that makes this nation great. This is against the value that this
Nation protects human life, liberty, and freedom, the foundation of the civilization that made
this nation great. This writ of Certiorari petitions to the U.S. Supreme Court, to the Department
of Justice and to the conscience of this Nation, for the absolute necessity to correct this error
before it is used by the enemy of this nation for the ultimate distraction.

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Date:

35

